      Department of Homeland Security





     Information Technology Management Letter for the
         FY 2012 U.S. Customs and Border Protection
                   Financial Statement Audit




OIG-13-88 (Revised)                              May 2013

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov
                                               May 24, 2013



MEMORANDUM FOR:              The Honorable Thomas S. Winkowski
                             Deputy Commissioner
                             Performing the duties of the Commissioner of CBP
                             U.S. Customs and Border Protection

FROM:                        Charles K. Edwards
                             Deputy Inspector General

SUBJECT:                      Information Technology Management Letter for the FY
                              2012 U.S. Customs and Border Protection Financial
                              Statement Audit-Revised

Attached for your information is the revised version of the final report, Information
Technology Management Letter for the FY 2012 U.S. Customs and Border Protection
Financial Statement Audit. This report contains observations related to information
technology internal control. The revision to the report included a corrected report title
and a new Appendix D, which replaced Appendix A, Report Distribution.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Frank Deffer, Assistant
Inspector General for Information Technology Audits, at (202) 254-4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




April 4, 2013

Inspector General
U.S. Department of Homeland Security

Chief Information Officer and
Chief Financial Officer
U.S. Customs and Border Protection

We have audited the consolidated balance sheets of the U.S. Customs and Border Protection
(CBP), a Component of the U.S. Department of Homeland Security (DHS), as of September 30,
2012, and 2011, and the related consolidated statements of net cost, changes in net position, and
custodial activity, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended. In planning and performing our
audit engagement of CBP’s consolidated financial statements, we considered CBP’s internal
control over financial reporting in order to determine our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements.
In connection with our fiscal year (FY) 2012 engagement, we considered CBP’s internal control
over financial reporting by obtaining an understanding of CBP’s internal controls, determining
whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls in order to determine our procedures. We limited our internal control testing to
those controls necessary to achieve the objectives described in Government Auditing Standards
and the Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as amended. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982. The objective of our audit engagement was not to provide an opinion on the effectiveness
of CBP’s internal control over financial reporting. Accordingly, we do not express an opinion
on the effectiveness of CBP’s internal control over financial reporting.
Our audit engagement of CBP as of, and for the year ended, September 30, 2012, disclosed a
significant deficiency in the areas of Information Technology (IT) security management, access
controls, configuration management, segregation of duties, contingency planning, and
application controls. These matters are described in the General IT Control Findings and
Recommendations and the Application Control Finding and Recommendation sections of this
letter.
The significant deficiency described above is presented in our Independent Auditors’ Report,
dated January 25, 2013. This letter represents the separate restricted distribution letter
mentioned in that report.
The control deficiencies described herein have been discussed with the appropriate members of
management, and communicated through Notices of Findings and Recommendations (NFRs),
and are intended For Official Use Only.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Because of its inherent limitations, internal control over financial reporting may not prevent, or
detect and correct misstatements. Also, projections of any evaluation of effectiveness to future
periods are subject to the risk that controls may become inadequate because of changes in
conditions, or that the degree of compliance with the policies or procedures may deteriorate. We
aim to use our knowledge of CBP gained during our audit engagement to make comments and
suggestions that are intended to improve internal control over financial reporting or result in
other operating efficiencies.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key CBP financial systems and IT infrastructure within the scope of the FY 2012
CBP consolidated financial statement audit in Appendix A; a description of each internal control
finding in Appendix B; and the current status of the prior year NFRs in Appendix C.
This report is intended solely for the information and use of DHS management, DHS Office of
Inspector General (OIG), U.S. OMB, U.S. Government Accountability Office (GAO), and the
U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


Very truly yours,
                              Department of Homeland Security
                             U.S. Customs and Border Protection
                          Information Technology Management Letter
                                     September 30, 2012

                INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                      TABLE OF CONTENTS

                                                                                             Page

Objective, Scope, and Approach                                                                1

Summary of Findings and Recommendations                                                       2

General IT Control Findings and Recommendations                                               3

   Findings                                                                                   3

       Security Management                                                                    3

            After – Hours Physical Security Testing                                           4

       Access Control                                                                         5

       Configuration Management                                                               5

       Segregation of Duties                                                                  6

       Contingency Planning                                                                   6

   Recommendations                                                                            6

       Security Management                                                                    6

       Access Control                                                                         6

       Configuration Management                                                               7

       Segregation of Duties                                                                  7

       Contingency Planning                                                                   8

Application Control Finding and Recommendation                                                8


                                          APPENDICES

Appendix                                       Subject                                       Page

           Description of Key CBP Financial Systems and IT Infrastructure within the Scope
   A                                                                                          9
           of the FY 2012 CBP Financial Statement Audit

   B       FY 2012 Notices of IT Findings and Recommendations                                11

           Status of Prior Year Notices of Findings and Recommendations and Comparison 

   C                                                                                         15
           to Current Year Notices of Findings and Recommendations




Information Technology Management Letter for the FY 2012 U.S Customs and Border Protection
                               Financial Statement Audit
                                 Department of Homeland Security
                                U.S. Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2012

                            OBJECTIVE, SCOPE, AND APPROACH

We have audited the consolidated balance sheets of the U.S. CBP, a component of the U.S. DHS, and
related consolidated statements of net cost, changes in net position, and custodial activity, and the
combined statements of budgetary resources (hereinafter, referred to as “consolidated financial
statements”) as of September 30, 2012, and 2011. In connection with our engagement to audit CBP’s
consolidated financial statements, we performed an evaluation of general Information Technology (IT)
controls (GITCs), to assist in planning and performing our audit engagement. The Federal Information
System Controls Audit Manual (FISCAM), issued by the GAO, formed the basis of our GITC evaluation
procedures. The scope of the GITC evaluation is further described in Appendix A.

FISCAM was designed to inform financial statement auditors about IT controls and related audit concerns
to assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial statement audit. FISCAM also provides guidance to auditors when considering the scope and
extent of review that generally should be performed when evaluating GITCs and the IT environment of a
Federal agency. FISCAM defines the following five control functions to be essential to the effective
operation of the GITCs and the IT environment:

   Security Management (SM) – Controls provide reasonable assurance that security management is
   effective.

   Access Control (AC) – Controls provide reasonable assurance that access to computer resources (data,
   equipment, and facilities) is reasonable and restricted to authorized individuals.

   Configuration Management (CM) – Controls provide reasonable assurance that changes to
   information system resources are authorized and systems are configured and operated securely and as
   intended.

   Segregation of Duties (SD) – Controls provide reasonable assurance that incompatible duties are
   effectively segregated.

   Contingency Planning (CP) – Controls provide reasonable assurance that contingency planning: (1)
   protects information resources and minimizes the risk of unplanned interruptions and (2) provides for
   recovery of critical operations should interruptions occur.

To complement our GITC audit procedures, we also performed technical security testing for key network
and system devices, as well as testing over key financial application controls in the CBP environment.
The technical security testing was performed from within select CBP facilities, and focused on production
devices that directly support key general support systems.

In addition, we performed application control tests on a limited number of CBP’s financial systems. The
application control testing was performed to assess the controls that support the financial systems’
internal controls over the input, processing, and output of financial data and transactions. FISCAM
defines application controls as follows: Application controls are the structure, policies, and procedures
that apply to separate, individual application systems, such as accounts payable, inventory, or payroll.




Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection
                               Financial Statement Audit


                                                  Page 1

                                 Department of Homeland Security
                                U.S. Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2012

                  SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2012, CBP took corrective action to address prior year IT control weaknesses. For example,
CBP made improvements in various system logical access processes and system security settings.
However, during FY 2012, we identified new and continuing GITC weaknesses that could potentially
impact CBP’s financial data. The most significant weaknesses related to controls over access to programs
and data, segregation of duties, and configuration management. Collectively, the IT control weaknesses
limited CBP’s ability to ensure that critical financial and operational data were maintained in such a
manner to ensure confidentiality, integrity, and availability. In addition, these weaknesses negatively
impacted the internal controls over CBP financial reporting and its operations, and we considered them to
collectively represent a significant deficiency for CBP under standards established by the American
Institute of Certified Public Accountants. The IT findings were combined into a significant deficiency
regarding IT for the FY 2012 audit of the CBP consolidated financial statements. In addition, based upon
the results of our test work, we noted that CBP contributes to the DHS’ non-compliance with the
requirements of the Federal Financial Management Improvement Act of 1996.

In FY 2012, our IT audit work identified 46 IT findings, of which 21 were repeat findings from the prior
year and 25 were new findings. In addition, we determined that CBP remediated 15 IT findings identified
in the prior year. Collectively, these findings represent deficiencies in all five FISCAM key control areas,
as well as deficiencies related to financial system functionality. These weaknesses may increase the risk
that the confidentiality, integrity, and availability of system controls and CBP financial data could be
exploited thereby compromising the integrity of financial data used by management and reported in
CBP’s financial statements.

The recommendations made by us in this report are intended to be helpful, and may not fully remediate
the related deficiency. CBP management has the responsibility to determine the most appropriate
methods for addressing the weaknesses identified.




Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection
                               Financial Statement Audit


                                                  Page 2

                                Department of Homeland Security
                               U.S. Customs and Border Protection
                            Information Technology Management Letter
                                       September 30, 2012

            GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS

Findings:

During our engagement to audit the FY 2012 CBP financial statements, we identified the following CBP
GITC and financial system control deficiencies that in the aggregate are considered a significant
deficiency at CBP and in the aggregate contribute to the IT material weakness at the Department level:

Security Management

   Systems Security Authorization :
   -   Interconnection security agreements (ISA) were expired and not fully documented for multiple
       systems;
   -   Several financial systems and general support systems were not properly certified and accredited,
       in compliance with DHS policy; and
   -   Privacy Threshold Analyses and Privacy Impact Assessments, Risk Assessments and Security
       Assessment Reports were not updated or approved in compliance with DHS policy for multiple
       systems.
   System Security Plans (SSP) did not reflect the current system environment, to include a current 

   listing of external system connections for multiple systems.

   Lack of compliance with existing policies:

   -   IT-based specialized security training requirements had not been fully implemented and enforced; 

   -   Background reinvestigations of Federal employees and contractors employed to operate, manage

       and provide security over IT systems were not being properly conducted;
   -   Non-disclosure agreements (NDAs) were not consistently completed; and
   -   Exit processing procedures for transferred/terminated personnel, including contractors, were not
       consistently followed or communicated internally in a timely manner.




Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection
                               Financial Statement Audit


                                                 Page 3

                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                              Information Technology Management Letter
                                         September 30, 2012

After-Hours Physical Security Testing

During the after-hours physical security walkthrough of selected CBP locations in the Washington, DC
area, 104 instances were identified where assets and information were inadequately protected against
unauthorized access, misuse, or misappropriation. Specific weaknesses identified and the locations where
the instances were identified are included in the following matrix:

Exceptions Noted (1)   National         NDC 2      Beauregard      Falls         National     Total
                       Data                                        Church        Place        Exceptions
                       Center
                       (NDC) 1

Passwords (2)          5                0          1               0             3            9

For Official Use       24               5          4               4             6            43
Only

Keys                   3                1          0               0             0            4

Personally             1                1          1               1             7            11
Identifiable
Information

Unlocked               2(4)             1          0               0             1(5)         4
Laptop/Workstation

Server                 21               3          0               1             0            25
Names/Internet
Protocol (IP)
Addresses (3)

Credit Cards           0                0          0               0             2            2

Classified             0                0          0               0             0            0
Documents

External Drives,       0                0          0               3             3            6
Other Media,
Blackberries, etc.

Total Exceptions at    56               11         6               9             22           104
CBP

Notes:
(1) The number of offices and cubicles inspected does not equal the total number of exceptions identified,
since one office/cubicle may have had multiple exceptions.


Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection
                               Financial Statement Audit

                                                 Page 4
                                 Department of Homeland Security
                                U.S. Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2012

(2) Attempts to login to the systems with the identified passwords were not performed. However, we
assumed that the identified passwords were valid passwords.
 (3) The unit of measure for Server Names/IP Addresses exceptions is at the document level, rather than
at the individual server name/IP addresses level. For example, if a document contained multiple IP
addresses, only one exception was noted. Consequently, each noted exception may contain multiple
instances of Server Names/IP Addresses. In addition, IP address findings were not differentiated between
IP addresses within a network diagram vs. IP addresses not on a network diagram.
 (4) One unattended laptop was observed to be unlocked and did not display a password-protected
screensaver.
(5) One unattended workstation was observed to be unlocked and did not display a password-protected
screensaver.
(6) Note that approximately 15 desks / offices were examined at each of the locations above.

Access Control

   Ineffective safeguards over logical and physical access to sensitive facilities and resources:
    -   The physical access management system does not generate complete and accurate listings of
        users with access to the location where systems are physically hosted;
   Deficiencies in management of application and/or database accounts, network, and remote user
   accounts:
   -    User account lists and/or change logs were not periodically reviewed for appropriateness;
   -    Excessive user access privileges were allowed for several systems, and users logical access to
        systems and data was not disabled or removed promptly upon personnel termination; and
   -    The process for authorizing and managing access to component systems and networks, including
        virtual private network and other remote access, did not comply with DHS and CBP
        requirements.
   Ineffective or insufficient use of available audit logs:
   -    Logs of auditable events were not being completed appropriately, were not reviewed to identify
        potential incidents, or were reviewed by those with conflicting roles; and
   -    Shared user accounts exist on the database and actions are not explicitly traceable to the users
        who executed the action.

Configuration Management

   Security patch management and configuration deficiencies were identified during the vulnerability
   assessment on hosts supporting the key financial applications and general support systems.
   The process for documenting, authorizing, testing and migrating application software changes and
   implementing operating system and database patches into production did not comply with DHS and
   component requirements.




Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection
                               Financial Statement Audit


                                                   Page 5

                                Department of Homeland Security
                               U.S. Customs and Border Protection
                            Information Technology Management Letter
                                       September 30, 2012

Segregation of Duties

   Lack of evidence to show that least privilege and segregation of duties controls exist for two systems.
   Lack of monitoring developer’s emergency and temporary access to the production environment.

Contingency Planning

   Service continuity plans were not reviewed in compliance with DHS policy.

Recommendations:

We recommend that the CBP Chief Information Officer (CIO) and Chief Financial Officer (CFO), in
coordination with the DHS Office of Chief Information Officer and the DHS Office of the Chief Financial
Officer, make the following improvements to CBP’s financial management systems and associated
information technology security program:

Security Management
   Document and renew interconnection documents on a timely basis, and update SSPs to reflect current
   external system connections;
   Initiate all outstanding periodic reinvestigations by the end of the fiscal year 2012 as required by DHS
   policy;
   Reiterate NDA policy requirements to the Contracting Officer’s Representatives (CORs). Validate
   the process for completing and filing NDAs and implement improvements to ensure NDAs are
   appropriately completed;
   Ensure all roles with significant information security responsibilities are identified and defined.
   Ensure all employee and contractor personnel possessing these roles participate in and receive the
   appropriate Role-based Security Training (RBST) on an annual basis. Monitor those positions to
   ensure all employees and contractors participate in and receive the appropriate RBST;
   Ensure that all security authorization documentation is updated and reviewed at the frequency
   required by DHS policy; and
   Issue reminders to Federal Supervisors and CORs on the Federal employee and contractor separation
   clearance process. Ensure that Human Resources has included separation clearance as part of any
   Federal Supervisor and COR reference guides.

After-Hours Physical Security Testing:

   Provide security awareness training to all CBP employees through multiple mediums each year.
   Continuously remind users to protect passwords, sensitive information, and CBP media. Continue
   efforts to enhance the CBP security awareness campaigns, and focus on desktop reviews.

Access Control

   Ensure that the physical access management system is updated with a complete and accurate listing of
   users with access to the raised floor. Update physical security procedures to include any changes to
   the physical access management process;
Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection
                               Financial Statement Audit


                                                 Page 6

                                 Department of Homeland Security
                                U.S. Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2012

   Explore capabilities to extract data for instances where developers have been granted emergency
   access to production. If the capabilities exist, develop and implement a process to review these
   actions for appropriateness;
   Implement and configure technology to record user account changes, update and implement processes
   for identifying and reconciling changes to access privileges to source documentation, and ensure that
   reviews over changes to access privileges are performed as required by DHS policy;
   Update the configuration setting for disabling operating system user accounts after a period of

   inactivity;

   Evaluate and update the current processes for provisioning access and ensure that all requests for
   general and emergency access to applications, systems, and networks, including remote users, are
   supported by an appropriately authorized request for access. Conduct periodic internal verification
   reviews and training to ensure that security administrators and supervisors are enforcing compliance
   with these processes;
   Evaluate and update the current annual recertification process to ensure that all privileged and non-
   privileged user access is recertified, revalidated, and updated as required;
   Evaluate and update system user separation processes to ensure the user access is revoked in a timely
   manner when personnel are transferred, separated from the organization, or when job duties change
   and the user no longer needs system access;
   Implement a process for logging changes to critical and sensitive data and regularly review the
   contents of these logs as required by DHS policy. Maintain evidence of the review of these logs; and
   Require each database administrator to authenticate to the database using unique identifiers rather
   than shared user identifiers.

Configuration Management

   Develop a central repository for all artifacts related to change requests to ensure that all change
   requests are appropriately authorized and tested from initiation to completion;
   Evaluate change management and patching processes to ensure compliance with DHS policies.
   Enforce a timely approval and implementation of standard and emergency application changes and
   operating system and database patches; and
   Review all patching processes to ensure compliance with DHS policy. Resolve all vulnerabilities
   noted in the IT technical vulnerability assessment scan results. Remove all software no longer
   utilized or not authorized for use from all identified systems.

Segregation of Duties

   Implement segregation of application user duties within the access management system; and
   Establish a regular review of audit logs for indications of inappropriate or unusual activity where
   duties cannot be adequately segregated due to operational factors.




Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection
                               Financial Statement Audit


                                                  Page 7

                                Department of Homeland Security
                               U.S. Customs and Border Protection
                            Information Technology Management Letter
                                       September 30, 2012

Contingency Planning

    Ensure that all security authorization documentation, including contingency plans, is updated and
    reviewed on the frequency as required by DHS policy.


            APPLICATION CONTROL FINDING AND RECOMMENDATION

During the FY 2012 CBP financial statement audit, we identified the following application control and
financial system functionality deficiency that, when aggregated with the GITC deficiencies, is considered
a significant deficiency:

Finding:

One financial system lacks the controls necessary to prevent, or detect and correct excessive drawback
claims. Specifically, the programming logic for the system does not link drawback claims to imports at a
detailed, line item level. This would potentially allow the importer to receive payment in excess of an
allowable amount.

Recommendation:

We recommend that the CBP CIO and CFO, in coordination with the DHS Office of Chief Information
Officer and the DHS Office of the Chief Financial Officer continue to pursue alternative compensating or
automated controls and measures that may ultimately remediate the risk of overpayment and identify the
potential revenue loss exposure to CBP. These alternative internal controls over drawback claims may
result in the capability to compare, verify, and track essential information on drawback claims and
identify duplicate or excessive drawback claims.




Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection
                               Financial Statement Audit


                                                 Page 8

                                                                               Appendix A
                            Department of Homeland Security
                           U.S. Customs and Border Protection
                        Information Technology Management Letter
                                   September 30, 2012




                                     Appendix A
 Description of Key CBP Financial Systems and IT Infrastructure
 within the Scope of the FY 2012 CBP Financial Statement Audit




Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection
                               Financial Statement Audit


                                          Page 9

                                                                                            Appendix A
                                Department of Homeland Security
                               U.S. Customs and Border Protection
                            Information Technology Management Letter
                                       September 30, 2012



Below is a description of significant U.S. Customs and Border Protection (CBP) financial management
systems and supporting information technology (IT) infrastructure included in the scope of CBP’s FY
2012 financial statement audit.
Automated Commercial Environment (ACE)
ACE is the commercial trade processing system being developed by CBP to facilitate trade while
strengthening border security. It is CBP’s plan that this system will replace the Automated Commercial
System (ACS) when ACE is fully implemented. The mission of ACE is to implement a secure,
integrated, government-wide system for the electronic collection, use, and dissemination of international
trade and transportation data essential to Federal agencies. ACE is being deployed in phases, without a
final, full deployment date due to funding setbacks. As ACE is partially implemented now and processes
a significant amount of revenue for CBP, ACE was included in full scope in the FY 2012 financial
statement audit. The ACE system is located in Virginia (VA).
Automated Commercial System (ACS)
ACS is a collection of mainframe-based business process systems used to track, control, and process
commercial goods and conveyances entering the United States territory, for the purpose of collecting
import duties, fees, and taxes owed to the Federal Government. ACS collects duties at ports, collaborates
with financial institutions to process duty and tax payments, provides automated duty filing for trade
clients, and shares information with the Federal Trade Commission on trade violations and illegal
imports. The ACS system was included in full scope in the FY 2012 financial statement audit. The ACS
system is located in VA.
National Data Center – DC Metro Local Area Network (DC Metro LAN)
The DC Metro LAN provides more than 10,000 CBP contractors and employee user’s access to
enterprise-wide applications and systems. The mission of the DC Metro LAN is to support the mission of
CBP operational elements in the DC Metro LAN region of the organization. These tools include personal
computers, laptop computers, printers and file/print servers which enable CBP officers and agents to
interact with all other applications and systems in the CBP environment. There are 21 major applications
supported by the DC Metro LAN, including ACE and ACS. As the DC Metro LAN included the
environment where the ACE, ACS, and SAP applications physically reside, the DC Metro LAN was
included in the FY 2012 financial statement audit. The DC Metro LAN is located in VA.
Systems, Applications, and Products, Enterprise Central Component (SAP ECC)
SAP is a client/server-based financial management system and includes the Funds Management, Budget
Control System, General Ledger, Real Estate, Property, Internal Orders, Sales and Distribution, Special
Purpose Ledger, and Accounts Payable modules. These modules are used by CBP to manage assets (e.g.,
budget, logistics, procurement, and related policy), revenue (e.g., accounting and commercial operations:
trade, tariff, and law enforcement), and to provide information for strategic decision making. The SAP
ECC financial management system was included in full scope in the FY 2012 financial statement audit.
The SAP ECC system is located in VA.




Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection
                               Financial Statement Audit


                                                Page 10

                                                                               Appendix B
                            Department of Homeland Security
                           U.S. Customs and Border Protection
                        Information Technology Management Letter
                                   September 30, 2012




                                     Appendix B

        FY 2012 Notices of IT Findings and Recommendations





Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection
                               Financial Statement Audit


                                         Page 11

                                                                                                                        Appendix B
                                                 Department of Homeland Security
                                                U.S. Customs and Border Protection
                                             Information Technology Management Letter
                                                        September 30, 2012

                                                                                                                   New     Repeat
FY 2011 NFR #                                    NFR Title                               FISCAM Control Area
                                                                                                                   Issue    Issue
CBP-IT-12-01    Physical Security Issues Identified During Enhanced Security Testing        Access Controls                  X
CBP-IT-12-02    Inadequate Role-Based Security Training Program                           Security Management                X
CBP-IT-12-03    Segregation of Duties Control Weaknesses within CBP System                  Access Controls                  X
CBP-IT-12-04    CBP System User Profile Change Logs are not Reviewed                        Access Controls                  X
CBP-IT-12-05    CBP System User Profile Change Logs are not Reviewed                        Access Controls                  X
CBP-IT-12-06    Weaknesses in Creating New CBP System Accounts                              Access Controls                  X
CBP-IT-12-07    CBP System Audit Logs not Appropriately Reviewed                            Access Controls                  X
                Incomplete Background Re-Investigations for CBP Employees and
CBP-IT-12-08                                                                              Security Management                X
                Contractors
CBP-IT-12-09    Contractor NDAs are Incomplete                                            Security Management                X
CBP-IT-12-10    Lack of Annual Recertification for CBP System Application Users             Access Controls         X
CBP-IT-12-11    Incomplete Documentation of ISAs for CBP System Connections                 Access Controls         X
CBP-IT-12-12    Inadequate Documentation for CBP System Application Software Changes    Configuration Management    X
                CBP System DB2 Database Patches are not Documented and Implemented
CBP-IT-12-13                                                                            Configuration Management    X
                Appropriately
                CBP System AIX Operating System Patches are not Implemented
CBP-IT-12-14                                                                            Configuration Management    X
                Appropriately
                CBP System Production and Training Operating Systems Vulnerability
CBP-IT-12-15                                                                            Configuration Management             X
                Scanning Process Weaknesses and Scan Results
CBP-IT-12-16    Lack of Access Requests and Approvals for CBP System Accounts               Access Controls                  X
                Lack of Monitoring Developer Emergency/Temporary Access to CBP
CBP-IT-12-17                                                                                Access Controls                  X
                System Production
CBP-IT-12-18    Lack of Annual Recertification for CBP System Privileged Users              Access Controls         X



   Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection Financial Statement Audit 


                                                                  Page 12

                                                                                                                          Appendix B
                                                Department of Homeland Security
                                               U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                       September 30, 2012

                                                                                                                     New     Repeat
FY 2011 NFR #                                   NFR Title                                  FISCAM Control Area
                                                                                                                     Issue    Issue
CBP-IT-12-19    Incomplete Documentation of ISAs for CBP System Connections                   Access Controls                  X
CBP-IT-12-20    Inadequate Documentation for CBP System Application Software Changes      Configuration Management    X
                CBP System LPARs and Linux z/OS Vulnerability Scanning Process
CBP-IT-12-21                                                                              Configuration Management    X
                Weaknesses and Scan Results
CBP-IT-12-22    CBP System Raised Floor Access Weaknesses                                     Access Controls         X
CBP-IT-12-23    Lack of Functionality in the CBP System                                     Application Controls               X
CBP-IT-12-24    Inadequate Documentation of CBP System Access Requests                        Access Controls                  X
                Incomplete Access Request Approval Forms for New Remote Access User
CBP-IT-12-25                                                                                  Access Controls                  X
                Account
                CBP System Security Authorization Documentation is Not Documented,
CBP-IT-12-26                                                                                  Access Controls         X
                Approved, and Kept Up-To Date.
CBP-IT-12-27    Separated Personnel on CBP System User Listing                                Access Controls         X
                Lack of Annual Recertification for CBP System Application, Oracle
CBP-IT-12-28                                                                                  Access Controls         X
                Database and Operating System Account Recertifications
CBP-IT-12-29    CBP System Audit Logs are not Appropriately Reviewed                          Access Controls         X
CBP-IT-12-30    CBP System Technical Vulnerability Weaknesses                             Configuration Management    X
CBP-IT-12-31    Lack of Complete Review of CBP System Profile Changes                         Access Controls         X
CBP-IT-12-32    CBP System Vulnerability Scanning Process Weaknesses and Scan Results     Configuration Management    X
                CBP System Configuration Setting for Disabling Inactive Accounts is not
CBP-IT-12-33                                                                                  Access Controls         X
                Configured Appropriately
CBP-IT-12-34    Incomplete Documentation of ISAs for CBP System Connections                   Access Controls         X
                CBP System Oracle Database and Unix Operating Systems Patches are not
CBP-IT-12-36                                                                              Configuration Management    X
                Documented and Implemented Appropriately
CBP-IT-12-38    Employee Separation Process Weaknesses                                      Security Management                X


   Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection Financial Statement Audit 


                                                                  Page 13

                                                                                                                                   Appendix B
                                                         Department of Homeland Security
                                                        U.S. Customs and Border Protection
                                                     Information Technology Management Letter
                                                                September 30, 2012

                                                                                                                              New     Repeat
    FY 2011 NFR #                                        NFR Title                                  FISCAM Control Area
                                                                                                                              Issue    Issue
     CBP-IT-12-39        Contractor Separation Process Weaknesses                                    Security Management                X
                         CBP System Segregation of Duties Weaknesses over the Production
     CBP-IT-12-40                                                                                  Configuration Management             X
                         Environment
                         CBP System Security Authorization Documentation is Not Documented,
     CBP-IT-12-41                                                                                      Access Controls         X
                         Approved, and Kept Up-To Date.
                         CBP System Security Authorization Documentation is Not Documented,
     CBP-IT-12-42                                                                                      Access Controls         X
                         Approved, and Kept Up-To Date.
                         CBP System Security Authorization Documentation is Not Documented,
     CBP-IT-12-43                                                                                      Access Controls         X
                         Approved, and Kept Up-To Date.
                         CBP System Program Library Access not Documented and Approved
     CBP-IT-12-45                                                                                  Configuration Management    X
                         Appropriately.
     CBP-IT-12-46        Separated Personnel on CBP System User Listing                                Access Controls         X
     CBP-IT-12-47        Separated Personnel on CBP System User Listing                                Access Controls                  X
                         Separated Personnel on CBP System Application and Operating System User
     CBP-IT-12-48                                                                                      Access Controls                  X
                         Listing
     CBP-IT-12-49        CBP System Audit Log Review Weaknesses                                        Access Controls         X

Note 1: NFRs numbers CBP-IT-12-35, CBP-IT-12-37 and CBP-IT-12-44 were not used in this sequence.
Note 2: Specific system names were replaced with “CBP System” for security purposes.




         Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection Financial Statement Audit

                                                                          Page 14
                                                                               Appendix C
                            Department of Homeland Security
                           U.S. Customs and Border Protection
                        Information Technology Management Letter
                                   September 30, 2012




                                     Appendix C

Status of Prior Year Notices of Findings and Recommendations and 

       Comparison to Current Year Notices of Findings and 

                        Recommendations





Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection
                               Financial Statement Audit


                                         Page 15

                                                                                                                             Appendix C
                                                Department of Homeland Security
                                               U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                       September 30, 2012

                                                                                                                    Disposition
   NFR #                                                Description
                                                                                                           Closed            Repeat
CBP-IT-11-01    Security Awareness Issued Identified During Enhanced Security Testing                        X
CBP-IT-11-02    Physical Security Issues Identified during Enhanced Security Testing                                              X
CBP-IT-11-03    Inadequate Role-based Security Training Program                                                                   X
CBP-IT-11-04    Segregation of Duties Control Weaknesses within the CBP System                                                    X
                CBP System User Access Profile Change Log Review Procedures Have Not Been
CBP-IT-11-05                                                                                                                      X
                Implemented
CBP-IT-11-07    Lack of Monitoring of Developer Emergency/Temporary Access to CBP System Production                               X
CBP-IT-11-08    Lack of Monitoring of CBP System Novell Server Audit Logs                                    X
CBP-IT-11-09    Lack of Update to CBP System Contingency Plan                                                X
CBP-IT-11-10    Lack of Update to CBP System Security Plan                                                   X
                Background Investigations and Reinvestigations for CBP Employees and Contractors are not
CBP-IT-11-11                                                                                                                      X
                Completed
                Contractor Separation Procedures are not Updated and Contractor Separation forms are not
CBP-IT-11-12                                                                                                                      X
                Maintained
CBP-IT-11-13    Lack of Access Requests and Approval for CBP System Accounts                                                      X
CBP-IT-11-14    CBP System Profile Change Logs are not Reviewed                                                                   X
CBP-IT-11-15    CBP System User Access Form Documentation is Incomplete                                                           X
CBP-IT-11-16    CBP System Privileged User Recertification is Incomplete                                     X
CBP-IT-11-17    Remote User Access Form Documentation is Incomplete                                                               X
CBP-IT-11-18    CBP System Interconnection Security Agreements are Incomplete                                                     X
CBP-IT-11-19    Contractor Non-Disclosure Agreement Weaknesses                                                                    X
CBP-IT-11-20    Employee Separations Weaknesses                                                                                   X



  Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection Financial Statement Audit 


                                                                  Page 16

                                                                                                                       Appendix C
                                                       Department of Homeland Security
                                                      U.S. Customs and Border Protection
                                                   Information Technology Management Letter
                                                              September 30, 2012

                                                                                                              Disposition
        NFR #                                                   Description
                                                                                                     Closed            Repeat
    CBP-IT-11-21        CBP System Audit Log Review Weaknesses                                                              X
    CBP-IT-11-22        CBP System User Access Authorization Evidence Weakness                                              X
    CBP-IT-11-23        CBP System Security Test & Evaluation Weakness                                 X
    CBP-IT-11-24        CBP System Configuration Management Policies and Procedures not Finalized      X
    CBP-IT-11-25        CBP System Account Authentication Weaknesses                                   X
    CBP-IT-11-26        CBP System Audit Log Review Weaknesses                                         X
    CBP-IT-11-27        Security Weaknesses Identified during Technical Vulnerability Assessment                            X
    CBP-IT-11-28        Security Posture of CBP Workstations                                           X
    CBP-IT-11-30        Separated Personnel on CBP System User Listings                                                     X
    CBP-IT-11-31        CBP System Functionality Issues                                                                     X
    CBP-IT-11-32        CBP System User Account Termination Weaknesses                                                      X
    CBP-IT-11-33        CBP System Security Test & Evaluation Weakness                                 X
    CBP-IT-11-34        CBP System Security Test & Evaluation Weakness                                 X
    CBP-IT-11-35        Evidence of Personnel Authorization to Access Backup Media Not Available       X
    CBP-IT-11-36        CBP System Recertification Weaknesses                                          X
    CBP-IT-11-37        CBP System Privileged User Access Management Process Weaknesses                X
    CBP-IT-11-38        CBP System Privileged User Segregation of Duties Weaknesses                                         X

Note 1: NFRs numbers CBP-IT-11-06 and CBP-IT-11-29 were not used in the FY 2011 IT NFR sequence.
Note 2: Specific system names were replaced with “CBP System” for security purposes.




       Information Technology Management Letter for the FY 2012 U.S. Customs and Border Protection Financial Statement Audit

                                                                          Page 17
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary for Management
   Chief Financial Officer
   Chief Information Officer
   Chief Information Security Officer
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-13-88
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
